LAW OFFICES OF

CAHN & CAHN, P.C.
105 MAXESS ROAD, SUITE 124
MELVILLE, NEW YORK 11747
DANIEL K. CAHN

TELEPHONE: (631) 752-1600
FACSIMILE: (631) 752-1555

dcahn@cahnlaw.com
Of Counsel:
RICHARD C. CAHN

rcahn@cahnlaw.com

August 6, 2021
VIA FEDERAL EXPRESS
Scott S. Harris, Clerk
The Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Request for extension of time to respond to
Petition for Writ of Certiorari in James H. Fischer
v. Sandra F. Forrest et al., No. 20-1648

Dear Mr. Harris:
This firm and its principal attorney, Daniel Cahn, along with co-counsel Seth Hudson of Nexsen
Pruet PLLC, represent the Respondents, Sandra F. Forrest, Shane R. Gebauer, Brushy Mountain
Bee Farm, Inc., and Stephen T. Forrest, Jr. (“Respondents”), in connection with the abovereferenced appeal. I have been Counsel to the firm since 2013.
I am a member of the Bar of the Court since approximately 1960.
Pursuant to Rule 30(4), I write to respectfully request a thirty-day extension of time, from
September 1, 2021 to October 1, 2021, for Respondents to comply with the Court’s directive to
file their brief in response to the pending Petition for Certiorari.
We make this application partly because significant time will be needed to research and prepare
that brief, and the firm already has a current substantial caseload. More significantly, the clients
desire that Daniel Cahn, who argued the appeal in the Second Circuit and who has served as
principal New York counsel on this case since its inception, continue to do so. Daniel Cahn is
not a member of the bar of this Court, and accordingly, he is now preparing his application for
Admission to the Bar of the Court so that he may continue to serve as desired by the clients. It is
possible that his application for admission may not be ruled upon by the Court prior to the
current deadline of September 1, 2021.

LAW OFFICES OF

CAHN & CAHN, P.C.
Scott S. Harris, Clerk
August 6, 2021
Page 2
Counsel of record for the Petitioner has consented to this request.
Respectfully,
/s/ Richard C. Cahn
Richard C. Cahn
RCC/
SERVICE LIST
Andrew Grimm, Esq.
Counsel of Record
Digital Justice Foundation
15287 Pepperwood Drive
Omaha, NE 68154
(513) 210-2381
andrew@digitaljusticefoundation.org
Gregory Keenan, Esq.
Digital Justice Foundation
81 Stewart Street
Floral Park, NY 11001
Counsel for Petitioner
Edward F. Cunningham, Esq.
Counsel of Record
Law Offices of Edward F. Cunningham
62 Cambridge Avenue
Garden City, NY 11530
(516) 328-3705
ed@edcunninghamlaw.com

LAW OFFICES OF

CAHN & CAHN, P.C.
Scott S. Harris, Clerk
August 6, 2021
Page 3
Megan Verrips, Esq.
Information Dignity Alliance
P.O. Box 8684
Portland, OR 97207
Counsel for Amici Curiae
Seth L. Hudson, Esq.
Nexsen Pruet, PLLC
227 West Trade Street, Suite 1550
Charlotte, NC 28202
(704) 338-5307
shudson@nexsenpruet.com
Counsel for Respondents

Detailed Tracking

1 of 2

https://www.fedex.com/fedextrack/?trknbr=774470489346&trkqual=24...

TRACK ANOTHER SHIPMENT

8/10/2021, 10:21 AM

Detailed Tracking

2 of 2

https://www.fedex.com/fedextrack/?trknbr=774470489346&trkqual=24...

8/10/2021, 10:21 AM

Detailed Tracking

1 of 2

https://www.fedex.com/fedextrack/?trknbr=774470537098&trkqual=24...

TRACK ANOTHER SHIPMENT

8/10/2021, 10:19 AM

Detailed Tracking

2 of 2

https://www.fedex.com/fedextrack/?trknbr=774470537098&trkqual=24...

8/10/2021, 10:19 AM

